March 14, 2011

LAWRENCE K. JAMES
DISTRICT MANAGER, ARIZONA DISTRICT

SUBJECT: Management Advisory Report – The Effects of the Flats Sequencing
         System on Delivery Operations – Arizona District
         (Report Number DR-MA-11-001)

This report presents the results of our audit of the Flats Sequencing System (FSS)
(Project Number 11XG001DR000). Our objective was to evaluate the effects of the FSS
on delivery operations and operating costs at selected Arizona District delivery units.
This self-initiated audit addresses operational risk. See Appendix A for additional
information about this audit.

In October 2006, the U.S. Postal Service approved the Phase I Decision Analysis
Report (DAR) to develop, purchase, and deploy 100 FSS machines at 33 city locations.
FSS machines sort flat-sized mail such as large envelopes, newspapers, catalogs,
circulars, and magazines into delivery walk sequence at high speeds and at a much
higher productivity rate than the manual process. In full deployment, the FSS is
expected to produce annual operational savings for the Postal Service. Delivery units
should achieve this savings by eliminating manual carrier casings and reducing the
number of routes, resulting in reduced workhours.

Conclusion

The seven Arizona District delivery units1 reviewed have improved delivery operations
during FSS full production. These units cut operating costs by $1.3 million by reducing
city carrier office hours, manual distribution clerk workhours, and city carrier routes.
Although the FSS improved delivery operations, these delivery units received over
14 million flat mailpieces which could not be processed on FSS machines.
Approximately 7 million of these pieces were not carrier routed2 and required manual
sorting and casing to put in walk sequence.

This occurred because these mailpieces did not meet flat mail automation
requirements.3 See Appendix B for our detailed analysis of this topic. As a result, the
1
    The seven Arizona District delivery units reviewed were the

  Unworked pieces must be manually sorted by the clerks and cased by the carriers. Carrier-routed mailpieces are
only handled by carriers.
3
  Automation flats are not more than 11-1/2 inches long or more than 6-1/8 inches high, or more than 1/4 inch thick.
The piece should be flexible to bend at least 1 inch vertically without being damaged. Flat-size mailpieces must be
uniformly thick so that any bumps, protrusions, or other irregularities do not cause more than a 1/4-inch variance in
The Effects of the Flats Sequencing System on                                                           DR-MA-11-001
 Delivery Operations – Arizona District

Postal Service missed the opportunity to further reduce workhour costs and,
consequently, we estimated incurred unrecoverable questioned costs of approximately
$522,450 for fiscal year (FY) 2010. See Appendix C for our monetary impact.

We recommend the manager, Arizona District:

1. Continue to collaborate with business mailers to ensure flat mailpieces meet
   automation requirements and reduce the amount of unworked flat mail sent to
   delivery units.

Management’s Comments

Management agreed with the finding, recommendation, and monetary impact.
Management stated since January 2011, the acting FSS coordinator leads the
communication process, which includes meetings with all stakeholders. The
communication process incorporates daily FSS meetings and attendance at the Mail
Arrival Quality-Plant Arrival Quality daily reviews and weekly FSS round tables. In
January 2011, the FSS coordinator began notifying Marketing and Business Service
Network managers of any mailer issues for action.

Management’s comments included various conditions impacting FSS operations during
the review. They noted that the performance months prior to receiving FSS mailpieces
included several slower mailing months when numerous temporary residents leave
Arizona, whereas the performance period after receiving FSS mailpieces included
busier mailing months when residents return to Arizona, fall mailing season begins, and
large package products activity increases. Additionally, management stated there was a
ramp-up period after the FSS machines had been “conditionally accepted,” which may
have limited the FSS processing capacity to achieve the DAR expectations of reducing
manually sorting and casing. See Appendix E for management’s comments in their
entirety.

Evaluation of Management’s Comments

Management’s comments did not specifically address how they were going to reduce
the amount of unworked flat mail to the delivery units. We noted in the report the
Arizona District management began working directly with the processing plant to identify
mailpieces by type, zone, and mail arrival time to continue reducing the number of flat
mailpieces that require manual processing in the delivery units. The U.S. Postal Service
Office of Inspector General (OIG) considers management’s comments and actions
taken during the review responsive to the recommendation and management’s
corrective actions should resolve the issue identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when


thickness. The mailers using polywrap film or similar material to enclose or cover flat-size mailpieces must apply the
cover in the correct direction and ensure that label is readable.


                                                           2
The Effects of the Flats Sequencing System on                                  DR-MA-11-001
 Delivery Operations – Arizona District

corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information please contact Rita F. Oliver, director, Delivery,
or me at 703-248-2100.

    E-Signed by Robert Batta
  VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    Dean J. Granholm
    Elizabeth A. Schaefer
    Sylvester Black
    Alan B. Catlin
    David A. Martinez
    Frank L. Payne
    Corporate Audit and Response Management




                                                3
The Effects of the Flats Sequencing System on                                   DR-MA-11-001
 Delivery Operations – Arizona District



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The FSS machines sort flat-sized mail such as large envelopes, newspapers, catalogs,
circulars, and magazines into delivery sequence at high speeds and at a much higher
productivity rate than the manual process. FSS-processed mail will arrive at the delivery
unit in walk sequence order, ready for delivery by the carrier with no additional mail
movement or manual sorting required (see Illustration 1).

                           Illustration 1. FSS Mail Arriving at Delivery Unit




                                                Source: OIG

In October 2006, the Postal Service approved the Phase I DAR to develop, purchase,
and deploy 100 FSS machines at 33 city locations. However, in May 2010, the Postal
Service decided to spread the 100 machines in Phase I of the FSS program among 47
city locations — including new sites in Houston, TX; Philadelphia, PA; Charlotte, NC;
and Minneapolis and St. Paul, MN — rather than among the 33 original city locations.
As of May 2010, there were 12 FSS machines at five locations serving 107 delivery
units and 211 delivery zones. The use of FSS-processed mail has helped the Postal
Service reduce city carrier routes and save workhours. The Postal Service expects all
FSS machines to be operational during the summer of 2011.




                                                     4
The Effects of the Flats Sequencing System on                                                            DR-MA-11-001
 Delivery Operations – Arizona District



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the effects of FSS on delivery operations and operating
costs at selected Arizona District delivery units. Due to staggered FSS full-production
testing start dates, the selected delivery units reviewed were integrated into the process
during different months of FYs 2009 and 2010. Our audit scope covered March 2009 to
May 2010, which includes the 6-month performance period prior to the units receiving
FSS-processed mail and the performance period during which the units reviewed
received FSS-processed mail4 (see Table 1).

                                          Table 1. FSS Review Periods
                                    Performance Months Prior to                      Performance Months of
        FSS Sites                    Receiving FSS Mailpieces                       Receiving FSS Mailpieces
                                April 2009 – September 2009                    October 2009 – May 2010
                                April 2009 – September 2009                    October 2009 – May 2010
                                March 2009 – August 2009                       September 2009 – May 2010
                   on           March 2009 – August 2009                       September 2009 – May 2010
                                April 2009 – September 2009                    October 2009 – May 2010
                                May 2009 – October 2009                        November 2009 – April 2010
                                June 2009 – November 2009                      December 2009 – May 2010
                                 Source: Postal Service Arizona District Management


To accomplish our objective we:

   Judgmentally selected seven5 FSS delivery units in the Arizona District.

   Reviewed operational information throughout the Arizona District associated with
    delivery units receiving FSS-sequenced flat mail.

 Reviewed applicable documentation, policies, and procedures such as the FSS
   DAR, dated October 20, 2006; the approved FSS Work Methods Memorandum of
   Understanding between the Postal Service and the National Association of Letter
   Carriers, dated November 24, 2008; the FSS Implementation Guide, Version 1,
   dated May 2009; and the Domestic Mail Manual, Section 300, Commercial Mail
   Flats, dated May 2008.

   Extracted and analyzed data from the Enterprise Data Warehouse (EDW) Delivery
    Data Mart for cased and FSS mailpieces, city carrier office and overtime workhours,
    carriers returning after 5 p.m., managed service scans, and mail distribution clerk
    office hours.

4
 The scope limitations are due to differences in FSS production start dates for each delivery unit.
5
 Our sample included the                                                                                     and the
                      We included seven of the nine initial Arizona District delivery units receiving FSS-processed
mail. We did not include the                                              delivery units because they do not have



                                                           5
The Effects of the Flats Sequencing System on                                 DR-MA-11-001
 Delivery Operations – Arizona District

   Extracted and analyzed eFlash data to determine delivery units’ monthly mail
    volume in delivery at the selected delivery units.

   Conducted site visits at selected delivery unit locations.

   Interviewed Postal Service Western Area and Arizona District officials.

We conducted this performance audit from October 2010 through March 2011 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
Quality Standards for Inspection and Evaluation. We discussed our observations and
conclusions with management on February 1, 2011, and included their comments
where appropriate.

We extracted and analyzed data from EDW and eFlash. We assessed the reliability of
data such as delivery performance indicators, cased and FSS flat mailpieces, carrier
and clerk workhours and mail condition reports by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG has issued 11 reports and the Government Accountability Office (GAO) has
issued one report related to our objective in the last several years. See Appendix D for
details.




                                                6
The Effects of the Flats Sequencing System on                                   DR-MA-11-001
 Delivery Operations – Arizona District


                             APPENDIX B: DETAILED ANALYSIS

Improvements in City Delivery

The selected Arizona District delivery units improved their delivery operations and
reduced operating costs during the initial 6 months of FSS full production. Specifically,
we found reductions in:

         City carrier office hours;
         Manual distribution clerk workhours; and
         City carrier routes.

City Carrier Office Hours

City carrier office hours declined at the selected units. In the 6 months prior to receiving
FSS-processed flat mail, city carriers used 102,288 office hours. During the initial
6 months of receiving FSS-processed mail, the number of office hours declined to
70,287 – a reduction of 32,001 hours. According to delivery unit officials, the reductions
were due to adjustments to carriers’ start times resulting from less time to case flat
mailpieces (see Chart 1).

                                  Chart 1. City Carriers Office Hours




                                                Source: EDW




                                                     7
The Effects of the Flats Sequencing System on                                                         DR-MA-11-001
 Delivery Operations – Arizona District

For the 6 months prior to units receiving FSS-processed mail, city carriers’ office hour
costs were $4,295,863. During the initial 6 months of receiving FSS-processed mail, the
office hour costs declined to $3,029,803, which resulted in a cost reduction of
$1,266,0606 (see Chart 2).

                                   Chart 2. City Carrier Office Hour Costs



                                                                                                        $4,295,863




                                                                                                           $3,029,803




   $1,094,721
                                                             $988,505
                                                                                           $836,917

        $700,238                 $448,372                         $701,360 $435,358
                   $260,618                   $231,372                                          $585,114
                      $209,234       $335,637    $176,235                       $321,985

                                                                                                             Totals

                         Costs of Office Hours Before FSS     Costs of Office Hours After FSS
                                                  Source: EDW

Manual Distribution Clerk Workhours

The FSS environment caused a change in the manual distribution clerks’ workload.
Manual distribution clerk workhours decreased by 761 hours. For the 6 months prior to
units receiving FSS-processed mail, manual distribution clerks used 32,012 workhours
to manually sort mail at the selected delivery units compared to the 31,251 workhours
they used during the initial 6 months of receiving FSS-processed mail (see Chart 3).




6
  The selected delivery units reviewed were integrated into the FSS process during different months of FYs 2009 and
2010. The workhour cost calculations used both FY 2009 and 2010 rates.


                                                         8
The Effects of the Flats Sequencing System on                                                       DR-MA-11-001
 Delivery Operations – Arizona District




                               Chart 3. Manual Distribution Clerk Workhours




                                                  Source: EDW

For the 6 months prior to units receiving FSS-processed mail, manual distribution
workhour costs were $1,338,670 and during the initial 6 months of units receiving
FSS-processed mail workhour costs declined to $1,324,465. This resulted in a cost
reduction of $14,205 7 (see Chart 4).




7
 The selected delivery units reviewed were integrated into the process during different months of FYs 2009 and
2010. The workhour cost calculation used rates for FYs 2009 and 2010.


                                                         9
The Effects of the Flats Sequencing System on                                                          DR-MA-11-001
 Delivery Operations – Arizona District



                            Chart 4. Manual Distribution Clerk Workhour Costs




                                                                                                                     So
                                                   Source: EDW

City Carrier Routes

The savings are a result of reductions in the number of routes based on reduced casing
of flats from the FSS. For five of the seven selected delivery units receiving FSS-
processed mail, management conducted route adjustments and reduced the number of
city carrier routes from 295 to 281. For the remaining two delivery units, one delivery
unit increased their total assigned routes by one while one unit's number of assigned
routes remained unchanged8 (see Table 2).




8
  The five delivery units eliminating routes included:
                                                    for a total reduction of 15 routes. The
adjustments resulted in adding one route because of corrections to lines of travel errors created when the Carrier
Optimal Routing adjustment software that did not correctly calculate travel within the route. The
route adjustment reduced office hours but did not eliminate any routes.


                                                          10
 The Effects of the Flats Sequencing System on                                                          DR-MA-11-001
  Delivery Operations – Arizona District



                               Table 2. FSS Route Adjustments in Selected Units


                                                   Total City Routes         Total City Routes
                                                     Before Route              After Route
                         Delivery Units              Adjustments               Adjustments
                                                           75                        70
                                                           20                        19
                                                           28                        28
                                                           20                        19
                                                           62                        56
                                                           30                        31
                                                           60                        58
                      Totals                              295                       281
                                     Source: Arizona District Management

 Unworked Flat Mailpieces

 These delivery units received approximately 66 million flat mailpieces,9 over 14 million
 of which could not be processed on FSS machines. Of the 14 million mailpieces, more
 than 7 million10 were not carrier-routed and required both manual sorting by the clerks
 and manual casing by the carriers (see Table 3).

                          Table 3. October 2009 – September 2010 Flat Mail Volume



                                                                         Other            Total        Total Cased Flat
                        Total Delivered Flat       Total FSS           Sequenced        Cased Flat      Mailpieces Not
     Delivery Units         Mailpieces             Mailpieces           Volume          Mailpieces      Carrier-Routed
                                  18,341,173            7,882,002           6,785,576 3,673,5    95 $1,47          3,004
         5,327,6                           41           1,616,485           2,641,557 1,069,5    99              877,016
                                   6,659,121            2,388,148 3,034,7          67     1,236,206              915,710
                                   4,884,162            1,478,339 2,624,3          76      781,447               883,056
       16,56                            5,350           7,588,159           4,699,499 4,277,6    92            1,609,479
                                   5,797,829            1,870,526 2,384,1          25     1,543,178              698,180
                                   9,213,410            3,320,432 3,985,6          04     1,907,374 947,6                 44
Totals                            66,788,686           26,144,091         26,155,504    14,489,091             7,404,089
                                                   Source: eFlash


 9
   The flat mail volume was extracted from eFlash for the period of October 2009 through September 2010. The
 processing facility sent 66,788,686 flat mailpieces to the seven selected units. These flat mailpieces included
 52,299,595 in sequenced order (26,155,504 flat mailpieces processed on an FSS machine and 26,144,091 other
 sequenced flat mailpieces such as advertisement flyers and newspapers). This volume does not include the flat
 mailpiece count for the implementation month for each delivery unit.
 10
    The reported 7,404,089 cased flat mailpieces not carrier-routed are reported in eFlash as unit distribution volume.
 The unit distribution volume includes mail that may not be machineable due to mail design, limited processing space,
 and mail arriving at the plant outside established processing window.



                                                           11
The Effects of the Flats Sequencing System on                                                          DR-MA-11-001
 Delivery Operations – Arizona District

This condition occurred because the mail did not meet automation requirements11 (see
Illustration 2).

                                Illustration 2. Non - FSS Processed Flat Mail




                                             Source: Arizona District

The Arizona District manager monitors FSS operations. The Arizona District FSS
coordinator conducts daily teleconference meetings with district delivery unit officials
and business mailers to discuss FSS concerns and improvements. In addition, the
coordinator participates in weekly teleconference with Western Area and Postal Service
Headquarters officials to discuss any FSS issues occurring in the field. Finally, Arizona
District management began working directly with the processing plant to identify
mailpieces by type, zone, and mail arrival time to continue reducing the number of flat
mailpieces that require manual processing in the delivery units.

Unworked flat mailpieces that arrive at delivery units and are not processed on the FSS
machines negatively impact delivery operations by requiring additional workhours to
manually case and sort flat mailpieces in sequenced order for delivery. Consequently,
we estimated unrecoverable questioned costs of approximately $522,450 for FY 2010.
See Appendix C for our monetary impact.




11
   Automation flats are not more than 11-1/2 inches long or more than 6-1/8 inches high or more than 1/4-inch thick.
The piece should be flexible to bend at least 1 inch vertically without being damaged. Flat-sized mailpieces must be
uniformly thick so that any bumps, protrusions, or other irregularities do not cause more than a 1/4-inch variance in
thickness. A mailer using polywrap film or similar material to enclose or cover flat-size mailpieces must apply the
cover in the correct direction and ensure that label is readable.


                                                          12
   The Effects of the Flats Sequencing System on                                                            DR-MA-11-001
    Delivery Operations – Arizona District


                    APPENDIX C: OIG CALCULATION OF MONETARY IMPACT

   We estimated a monetary impact of $522,450 in unrecoverable questioned costs12 for
   FY 2010. We calculated the cost savings13 based on additional labor cost incurred by
   selected Arizona delivery units due to city carriers and manual distribution clerks casing
   and sorting flat mailpieces (see Tables 4, 5, and 6).

                                    Table 4. Summary of Cost Savings
                               Findings                                Impact Category                             Amount
 Unworked Flats City Carriers FY 2010 Costs for Manual Casing        Unrecoverable
 (see Table 5)                                                       questioned costs                              $367,669
 Unworked Flats Manual Distribution Clerks FY 2010 Station Costs for Unrecoverable
 Manual Sorting (see Table 6)                                        questioned costs                               154,781
                                                                     Total                                         $522,450
                                                   Source: OIG Analysis



                               Table 5. City Carrier Costs for Manual Casing of Flat Mail
                                            October 2009 – September 2010
                                                    FY 2010                          FY 2010                         FY 2010
                  FY 2010         Total Cased       Cost of        Total Cased       Cost of       Total Cased       Costs of
                 Number of       Unprocessed        Casing         Unprocessed        Casing       Unprocessed        Casing
  Delivery        Casing          Flats Pieces    Workhours        Flats Pieces     Workhours       Flat Pieces     Workhours
   Unit          Workhours       (100 Percent)   (100 Percent)     (80 Percent)    (80 Percent)    (62 Percent)    (62 Percent)
                       3,418         1,473,004        $147,471        1,178,403        $117,977         730,610       $ 73,146
         2,035                         877,016           87,803         701,613          70,243         435,000          43,550
                       2,125           915,710           91,677         732,568          73,342         454,192          45,472
                       2,049           883,056           88,408         706,445          70,726         437,996          43,850
    3,734                            1,609,479         161,135        1,287,583         128,908         798,302          79,923

        1,620                          698,180           69,899         558,544          55,919         346,297          34,670

                       2,199           947,644           94,874         758,115          75,899         470,031          47,058

Totals                17,180         7,404,089        $741,267        5,923,271        $593,014        3,672,428      $367,669
                                             Source: eFlash and OIG Analysis




   12
      Costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
   13
      According to the DAR for the FSS Program, delivery units should expect to capture an 85 percent savings rate for
   city carriers and an 80 percent savings rate for manual distribution clerks; however, because the FSS is processing at
   a 62 percent performance rate, we used 62 percent in our calculations. We based the calculated savings on a carrier
   productivity rate of 431 flats per hour and clerk productivity is 1,006.25 pieces per hour. The manual distribution clerk
   calculation does not consider carrier route mailpieces because the piece count is not available. Calculations used
   FY 2010 wage rates.


                                                              13
   The Effects of the Flats Sequencing System on                                                          DR-MA-11-001
    Delivery Operations – Arizona District




                 Table 6. Manual Distribution Clerk Costs for Manual Sorting of Flat Mail
                                    October 2009 – September 2010




                                                   FY 2010                        FY 2010                          FY 2010
               FY 2010       Total Cased           Cost of       Total Cased      Cost of         Total Cased      Costs of
              Number of     Unprocessed            Casing        Unprocessed       Casing         Unprocessed       Casing
  Delivery     Casing        Flats Pieces        Workhours       Flats Pieces    Workhours         Flat Pieces    Workhours
   Unit       Workhours     (100 Percent)       (100 Percent)    (80 Percent)   (80 Percent)      (62 Percent)   (62 Percent)
                    1,464           1,473,004        $ 62,082       1,178,403          $ 49,666        730,610      $ 30,793
                      872 877,016                      36,963         701,613 29,571                   435,000        18,334
                      910 915,710                      38,594         732,568 30,875                   454,192        19,143
                      878 883,056                      37,218         706,445 29,774                   437,996        18,460
    1,599                           1,609,479          67,834       1,287,583            54,267        798,302        33,646

                      694 698,180                      29,426         558,544 23,541                   346,297        14,595

                      942 947,644                      39,940         758,115 31,952                   470,031        19,810

Totals              7,359           7,404,089        $312,057       5,923,271          $249,646      3,672,428      $154,781
                                          Source: eFlash and OIG Analysis




                                                            14
The Effects of the Flats Sequencing System on                                                     DR-MA-11-001
 Delivery Operations – Arizona District


                          APPENDIX D: PRIOR AUDIT COVERAGE

The OIG has issued 11 reports and the Government Accountability Office has issued
one report related to our objective over the last several years.

                        Report            Final           Monetary
   Report Title         Number         Report Date         Impact Rep                     ort Results
The Effects of the   DR-MA-10-001 9/23/20       10        $145,515      The six Mid-America District delivery units
Flats Sequencing                                                        reviewed have improved delivery
System on Delivery                                                      operations during FSS full production. As
Operations - Mid                                                        a result, the Postal Service missed the
America                                                                 opportunity to further reduce workhour
                                                                        costs and, consequently, we estimated
                                                                        incurred unrecoverable questioned costs
                                                                        of approximately $145,515 for FY 2010.
                                                                        Management agreed with the finding,
                                                                        monetary impact, and recommendation to
                                                                        continue collaborating with business
                                                                        mailers to ensure flat mailpieces meet
                                                                        automation requirements and reduce the
                                                                        amount of unworked flat mail sent to
                                                                        delivery units.
The Effects of the   DR-MA-10-002       9/17/2010         $155,157      The five Columbus District delivery units
Flats Sequencing                                                        reviewed improved delivery operations
System on Delivery                                                      during FSS full production. This occurred
Operations –                                                            because this mail did not meet flat mail
Columbus                                                                automation requirements. As a result the
                                                                        Postal Service missed the opportunity to
                                                                        further reduce workhour costs and,
                                                                        consequently, we estimated incurred
                                                                        unrecoverable questioned costs of
                                                                        approximately $155,157 for FY 2010. A
                                                                        recommendation was made to continue to
                                                                        collaborate with business mailers to
                                                                        ensure flat mailpieces meet automation
                                                                        requirements and reduce the amount of
                                                                        unworked flat mail sent to delivery units.
                                                                        Management agreed with the finding,
                                                                        recommendation, and monetary impact.




                                                     15
The Effects of the Flats Sequencing System on                                                     DR-MA-11-001
 Delivery Operations – Arizona District


                         Report           Final           Monetary
    Report Title         Number        Report Date         Impact Rep                     ort Results
Flats Sequencing       DA-AR-10-007    7/10/2010           None         The Postal Service’s revised performance
System Program                                                          projections in Quarter 1, FY 2010’s
Status and                                                              Investment Highlights report do not use
Projected Cash                                                          current actual machine performance and
Flow                                                                    its projection of a gain of at least
                                                                        $872 million from FSS appear optimistic.
                                                                        In addition, there have been significant
                                                                        changes in assumptions for FSS
                                                                        machines and measurement criteria since
                                                                        the 2006 approval of the original
                                                                        investment. For example, flats volumes
                                                                        have decreased significantly, expected
                                                                        throughput rates have not been met,
                                                                        planned FSS sites have increased, the
                                                                        program schedule has changed by a
                                                                        year, and additional savings for
                                                                        transitional employees have been
                                                                        introduced to the investment return.
                                                                        These changes make it challenging for
                                                                        the Postal Service to measure project
                                                                        success as initially defined. Management
                                                                        agreed with the recommendation but
                                                                        indicated the financial outcomes
                                                                        presented in the report do not recognize
                                                                        operational factors of FSS.
Flats Sequencing       DR-AR-09-005 7/01/20     10        $852,336      The report identified that Northern Virginia
System Operational                                                      District delivery units have improved
Issues                                                                  delivery operations with FSS. These units’
                                                                        improvements contributed to a 6-month
                                                                        cost reduction of $196,271. However, we
                                                                        identified several FSS machines that were
                                                                        unavailable for several months and
                                                                        processing issues that negatively
                                                                        impacted delivery operations.
                                                                        Management agreed with the finding,
                                                                        recommendations, and monetary impact.
Effects of the Flats   DR-AR-09-011     9/28/2009          None         The five selected Northern Virginia District
Sequencing System                                                       delivery units improved in delivery
on Delivery                                                             operations during the initial 6 months of
Operations –                                                            FSS testing. Flat volumes decreased by
Northern Virginia                                                       more than 50 percent during this testing
District                                                                period, so we could not determine how
                                                                        much of these operational gains were due
                                                                        to implementation of the FSS. No
                                                                        recommendations were made in this
                                                                        report.




                                                     16
The Effects of the Flats Sequencing System on                                                     DR-MA-11-001
 Delivery Operations – Arizona District


                          Report           Final           Monetary
    Report Title          Number        Report Date         Impact Rep                    ort Results
Flats Sequencing        DA-AR-09-012      9/4/2009           None        Although FSS machine performance
System: First Article                                                    improved since the original test, the
Retest Results                                                           system failed to meet key statement of
                                                                         work performance parameters. The Postal
                                                                         Service attributed FSS performance
                                                                         shortcomings to the lack of additional
                                                                         hardware and software solutions that were
                                                                         not incorporated into the First Article
                                                                         Testing 2A system. Failure to meet
                                                                         statement of work performance
                                                                         requirements would reduce forecasted
                                                                         savings and increase operational burdens.
                                                                         Management partially agreed with the
                                                                         finding and recommendation.
Flats Sequencing        CA-AR-09-006 7/1/200    9          $7,733,522    The report determined that management
System Contractual                                                       of the FSS contract process resulted in
Remedies                                                                 increased financial risk to the Postal
                                                                         Service. Management agreed with
                                                                         recommendations 1 and 2 and partially
                                                                         agreed with the intent of
                                                                         recommendation 3. However,
                                                                         management disagreed with the findings
                                                                         and monetary impact.
Flats Sequencing        DA-AR-09-001 12/23/2    008          None        The report determined that program
System: Program                                                          management was attentive to system
Status                                                                   performance and schedule risks.
                                                                         Management agreed with the finding and
                                                                         recommendation.
Management of           CA-MA-09-002     12/1/2008           None        The report did not identify any
Contract Changes –                                                       unnecessary or inappropriate increased
Flats Sequencing                                                         costs to the Postal Service because of
System                                                                   changes to the FSS contract.
                                                                         Management agreed with the finding and
                                                                         recommendation in this report.
Flats Sequencing        DA-AR-08-006 6/4/200    8            None        The report determined the Postal Service
System: Production                                                       needed to focus greater attention on
First Article Testing                                                    workload, the First Article Testing
Readiness and                                                            schedule, and critical deliverables.
Quality                                                                  Management generally agreed with the
                                                                         finding and recommendation.




                                                      17
The Effects of the Flats Sequencing System on                                                      DR-MA-11-001
 Delivery Operations – Arizona District


                        Report            Final           Monetary
   Report Title         Number         Report Date         Impact Rep                     ort Results
Flats Sequencing      DA-AR-07-003 7/31/20      07         None         The report determined that Postal Service
System Risk                                                             Engineering needed to focus greater
Management                                                              attention on risk management standards
                                                                        to ensure the significant risks associated
                                                                        with deployment of the FSS were
                                                                        adequately identified and managed.
                                                                        Management agreed with findings. For
                                                                        recommendations 1 and 2, management
                                                                        agreed to the importance of adhering to
                                                                        established risk management standards
                                                                        and guidelines; and to work with
                                                                        Information Technology to revise
                                                                        processes and include operations
                                                                        representatives in the business impact
                                                                        assessments, respectively. However, for
                                                                        recommendation 3, management
                                                                        disagreed because they believed the
                                                                        rationale provided to support it was
                                                                        misleading. Further, management
                                                                        disagreed with recommendation 4
                                                                        because they had in place established risk
                                                                        tracking and mitigation plans to identify all
                                                                        risks.
Mail Delivery          GAO-09-696 7/15/20       09         None         The Postal Service has taken steps to
Efficiency Has                                                          deliver mail more efficiently, including
Improved, but                                                           adjusting delivery routes to reflect
Additional Actions                                                      declining volumes and investing in more
Needed to Achieve                                                       efficient mail-sorting technologies. This
Further Gains                                                           report addressed how the Postal Service
                                                                        monitors delivery efficiency,
                                                                        characteristics of delivery units that affect
                                                                        their efficiency, and the status and results
                                                                        of the Postal Service’s actions to improve
                                                                        delivery efficiency, in particular FSS. GAO
                                                                        made one recommendation to establish
                                                                        cost savings targets and track the results;
                                                                        however, the Postal Service did not agree
                                                                        to fully implement the recommendation.




                                                     18
The Effects of the Flats Sequencing System on               DR-MA-11-001
 Delivery Operations – Arizona District


                        APPENDIX E: MANAGEMENT’S COMMENTS




                                                19
The Effects of the Flats Sequencing System on        DR-MA-11-001
 Delivery Operations – Arizona District




                                                20
